      NATIONALRAILROAD
      PASSENGER CORPORATION




Memorandum
To:           Stephen Gardner, Vice President,
              Northeast Corridor Infrastructure & Investment Development
              Dan Black, Acting Chief Financial Officer


From:         David R. Warren
              Assistant Inspector General, Audits

Date:         July 18, 2013

Subject:      Northeast Corridor Infrastructure Project Planning and Development
              (012-2013)

This is to inform you that we are initiating a survey of issues related to North East
Corridor (NEC) infrastructure projects. The successful accomplishment of ongoing and
planned NEC infrastructure projects in an effective and efficient manner are of high
priority to the Corporation, the Board of Directors, the Congress, and other
stakeholders. Our overall objective is to keep apprised of NEC infrastructure planning
and implementation issues. Our specific objective is to provide stakeholders timely
information and recommendations, where appropriate, based on an independent
review of emerging issues.

The first issue we will review is the progress and challenges in managing and
implementing the ongoing Concrete Casing project that is part of the planned Gateway
Program. We request that the Controls Group arrange an entrance conference for us
with the appropriate Amtrak officials at the earliest possible date. We will keep you
advised of the status of our work and any material changes in our audit objective.

Dorian Herring will be the auditor-in-charge for this assignment. If you have questions
regarding this audit, please contact me at (202) 906-4742,

                                                                                          1
(David.Warren@amtrakoig.gov), Michael Kennedy, Senior Director, Audits, at (202)
906-4308, (Michael.Kennedy@amtrakoig.gov), or Matthew Simber, Senior Director,
Audits at (215) 349-1077, (Matt.Simber@amtrakoig.gov).

cc:
      Executive Committee Members
      William Herrmann, Deputy Managing General Counsel
      Matthew Gagnon, Senior Director, Business Processes and Management Controls
      Melantha Paige, Senior Audit Liaison




                                                                                   2
